4ou~
|

C@OCKLE

2311 Douglas Street ; E-Mail Address:
Omaha, Nebraska 68102-1214 L ga 1 B ae fs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-

AMERICAN INSTITUTE FOR INTERNATIONAL
STEEL, INC., SIM-TEX, LP, and KURT ORBAN
PARTNERS, LLC,

Petitioners,

Vv.
UNITED STATES and MARK A. MORGAN, ACTING
COMMISSIONER, UNITED STATES CUSTOMS and
BORDER PROTECTION,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 25th day of March, 2020, send out
from Omaha, NE | package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar
days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
ALAN B. MORRISON
Counsel of Record
GEORGE WASHINGTON
UNIVERSITY LAW SCHOOL
2000 H STREET, NW
Washington, D.C. 20052
(202) 994-7120
abmorrison@law.gwu.edu

Subscribed and sworn to before me this 25th day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

oe) Kine 0. toes? Onder Obl

Notary Public Affiant 39584

 

   
SERVICE LIST

Noel J. Francisco

Solicitor General of the United States
U.S. Department of Justice

Room 5616

950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

(202) 514-2217
supremectbriefs@usdoj.gov
